WAIVER

SUPREME COURT OF THE UNITED STATES

No. 21-5687

Darrell Hochhalter Jason Clendenion

(Petitioner) Vv. (Respondent)

1DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© lam filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

Lam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions; Mail the original signed form to: Supreme Court,

 

 

 

 

 

 

 

 

 

 

Attn: Clerk’s i . D.C. 20548).
Signature: ae — 7 ~ : |
Date:
(ype or prin) Name [ohn H.Bledsoe : |
Om O Ms. Os oO Miss
Firm Office of the Tennessee Attorney General and Reporter _ _ _ |
Adress P.O. Box 20207 OO / |

 

City & State Nashville, TN

| tip 37202

 

Phone (61 5)741-4351 | Email john.bledsoe@ag .tn.gov

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipients) of a copy of this form. No additional certificate of service or cover letter is required.

 

Darrell Hochhalter, No. 533622, Turney Center Industrial Complex, 1499 R.W. Moore Memorial
Highway, Only, TN 37240

ce:
